                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: 113070042                                                                         Page 1 of 1



                  We opened an investigation on a company 1 pursuant to information developed in a
         separate NSF OIG investigation? Allegedly, the company was selling the NSF logo as part of
         their internet-related product. 3

                 We made a purchase of the product,4 and identified two individuals 5 and three addresses 6
         that appeared to be connected to the company. We interviewed both individuals and neither had
         ever heard of the company or lived/worked at the identified addresses. We interviewed
         individuals 7 at the identified addresses and, again, nobody had heard of the company.

                Through open source information we subsequently determined that the company operates
         overseas and is outside our jurisdiction.

                   Accordingly, this investigative case is closed with no further action necessary.




NSF OIG Form 2 (11102)
